NO. 19-1186
IN THE

Supreme Court of the United States
JOSHUA BAKER, in his official capacity as Director,
South Carolina Department of Health and Human
Services,
Petitioner,
v.
JULIE EDWARDS, on her behalf and on behalf of all
others similarly situated, et al.,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit
PETITIONER’S RESPONSE TO
RESPONDENTS’ SUPPLEMENTAL BRIEF
REGARDING JURISDICTION
KELLY M. JOLLEY
ARIAIL B. KIRK
JOLLEY LAW GROUP, LLC
1201 Main Street
Suite 1100
Columbia, SC 29201
(803) 809-6500

JOHN J. BURSCH
Counsel of Record
BURSCH LAW, PLLC
9339 Cherry Valley Ave SE #78
Caledonia, MI 49316
(616) 450-4235
jbursch@burschlaw.com

Counsel for Petitioner

i
RULE 29.6 STATEMENT
The Rule 29.6 Statement in the petition remains
accurate.

ii
TABLE OF CONTENTS
RESPONSE TO SUPPLEMENTAL ARGUMENT
REGARDING JURISDICTION............................ 1
CONCLUSION ........................................................... 3

1
RESPONSE TO SUPPLEMENTAL
ARGUMENT REGARDING JURISDICTION
Respondents urge this Court to deny the petition
as moot because the district court “soon will enter a
permanent injunction.” Supp. Br. 1. But Petitioner
has opposed Respondents’ request for a permanent
injunction, and the district court has not yet taken
any action. Accordingly, even “Respondents recognize
that the dispute about the preliminary injunction is
not yet moot.” Supp. Br. 5. The most appropriate
course is for the Court to grant the petition and decide
this case on the merits to avoid the needless waste of
time and judicial resources relitigating a legal issue
on which the Fourth Circuit has already opined.
1. In the district court, Respondents tendered a
proposed order that would permanently enjoin
Defendant from terminating Respondent Planned
Parenthood from South Carolina’s Medicaid program.
Petitioner objected to entry of that order and urged
the district court to stay its hand until after this Court
resolves the pending petition for certiorari and, if
appropriate, issues a merits decision. As Petitioner
explained to the district court, entering a permanent
injunction will not provide any additional protection
for Respondents; they are already protected by a
preliminary injunction. Conversely, Respondents will
use the entry of a permanent injunction to seek
dismissal of the petition for certiorari—for now—and
force the Fourth Circuit Court of Appeals to engage in
unnecessary and duplicative proceedings.
The district court should stay its hand. The
appellate “redo” that Respondents are trying to force
would be an unnecessary multiplication of litigation

2
proceedings and a substantial waste of judicial
resources. The only things that will be accomplished
are to delay consideration of the petition by 18 months
and to create unnecessary work for the Fourth
Circuit. Given the lack of any benefit from entering
an order of permanent injunction, and the significant
and unnecessary burden on the Fourth Circuit, the
most appropriate course is for the district court to
stay the matter and delay entry of the permanent
injunction until after this Court has disposed of the
pending petition and issued a merits decision. Doing
so would conserve judicial resources and prejudice no
one.
2. Respondent Planned Parenthood’s gamesmanship is unhelpful. Its brief in opposition to the petition
was originally due April 29, 2020, but Planned
Parenthood sought and received multiple extensions,
thereby ensuring this Court could not consider the
petition until after the summer recess. When Planned
Parenthood finally filed its opposition brief, it argued
that the Court should deny the petition because the
case is interlocutory and if “the district court
concluded that [Planned Parenthood’s] claim fails on
its merits, there would be no need to resolve the
question presented here.” Opp. Br. 24. Planned
Parenthood then urged the district court to grant
summary judgment and enter a permanent injunction
for the same reasons the district court entered the
preliminary injunction, and it uses the district court’s
anticipated action on the permanent injunction to
claim mootness.
3. Until the district court enters a permanent
injunction, the petition is not moot. There is a good
likelihood the district court will wait to enter a

3
permanent injunction until this Court issues an order
on the pending petition.
The petition presents two jurisdictionally
significant questions involving substantial circuit
conflict that will affect multiple pending and future
matters across the country. There is no reason to
delay this case further.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
JOHN J. BURSCH
Counsel of Record
BURSCH LAW, PLLC
9339 Cherry Valley Ave
SE #78
Caledonia, MI 49316
(616) 450-4235
jbursch@burschlaw.com

OCTOBER 2020

KELLY M. JOLLEY
ARIAIL B. KIRK
JOLLEY LAW GROUP, LLC
1201 Main Street
Suite 1100
Columbia, SC 29201
(803) 809-6500

